   DEPARTMENT OF HEALTH AND HUMAN SERVICES                                       Office of Inspector General

                                                                                 Office of Audit Services
                                                                                 1100 Commerce, Room 632
                                                                                 Dallas, Texas 75242


                                                                              April 2, 2009
Report Number: A-06-08-00016

Mr. Dan Bloodworth
Senior Vice President and CFO
Pinnacle Business Solutions, Inc.
515 Pershing Boulevard.
North Little Rock, Arkansas 72114

Dear Mr. Bloodworth:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled “Audit of Pinnacle Business Solutions, Inc.’s, Medicare Part
B Final Administrative Cost Proposals for Fiscal Years 2005 through 2007.” We will forward a
copy of this report to the HHS action official noted on the following page for review and any
action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, OIG reports generally are made
available to the public to the extent that information in the report is not subject to exemptions in
the Act. Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Paul Chesser, Audit Manager, at (501) 225-8114 or through e-mail at
Paul.Chesser@oig.hhs.gov. Please refer to report number A-06-08-00016 in all correspondence.

                                              Sincerely,



                                              Gordon L. Sato
                                              Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Dan Bloodworth


Direct Reply to HHS Action Official:

Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
rokcmora@cms.hhs.gov
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




AUDIT OF PINNACLE BUSINESS
 SOLUTIONS, INC.’S MEDICARE
PART B FINAL ADMINISTRATIVE
 COST PROPOSALS FOR FISCAL
  YEARS 2005 THROUGH 2007




                    Daniel R. Levinson
                     Inspector General

                        April 2009
                      A-06-08-00016
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices 


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. ' 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY 


BACKGROUND 


Title XVIII of the Social Security Act established the Medicare Program, which provides for a
hospital insurance program (Part A) and a supplementary medical insurance program (Part B).
The Centers for Medicare & Medicaid Services (CMS) administers the Medicare program
through contractors, including Part B carriers that process and pay Medicare claims. Contracts
between CMS and the Medicare contractors define the functions to be performed and provide for
the reimbursement of allowable administrative costs incurred in the processing of Medicare
claims.

At the close of each fiscal year (FY), contractors submit to CMS a Final Administrative Cost
Proposal (cost proposal), which reports the costs incurred in performing Medicare functions
during the year. For FYs 2005 through 2007, CMS contracted with Pinnacle Business Solutions,
Inc. (Pinnacle), to serve as the Medicare Part B contractor for Arkansas, Louisiana, Missouri,
New Mexico, Oklahoma, and Rhode Island. Pinnacle reported Medicare administrative costs
totaling $174,424,088 in its cost proposals for FYs 2005 through 2007.

OBJECTIVE

Our objective was to determine whether the administrative costs Pinnacle reported in its cost
proposals were reasonable, allowable, and allocable in accordance with part 31 of the Federal
Acquisition Regulations (FAR) and the Medicare contract.

SUMMARY OF FINDINGS

Pinnacle reported expenditures in its cost proposals that substantially complied with FAR and
Medicare contract provisions. However, Pinnacle reported $247,040 in unallowable costs: (1)
$172,477 in overstated costs related to subcontracts ($149,089), fringe benefits ($21,324), and
executive compensation ($2,064) and (2) $74,563 in FY 2004 costs that it reported on the FY
2005 cost proposal. Pinnacle also reported $594,079 in professional and consulting services
costs and $223,193 in subcontractor services costs that may be unallowable. We are setting
aside the potentially unallowable costs for the CMS contracting officer to review for
allowability.

Pinnacle had no forward funding remaining for FYs 2005 through 2007; i.e., Pinnacle had
performed all of the services for which it had received funding.




                                                i
RECOMMENDATIONS

We recommend that Pinnacle:

   •	 decrease its FY 2005 cost proposal by $94,079 and its FY 2006 cost proposal by 

      $152,961 to reflect the unallowable costs and 


   •	 work with the CMS contracting officer to determine the allowability of $817,272 in costs
      related to professional and consulting services and subcontractor services.

PINNACLE COMMENTS

In written comments on our draft report, Pinnacle agreed that it had reported unallowable costs.
Pinnacle said that it had made or would make adjustments or offsets to decrease its FY 2005 cost
proposal by $94,079 and its FY 2006 cost proposal by $152,961. Pinnacle said that it would
work with CMS to determine the allowability of costs relating to professional and consulting
services and subcontractor services.

Pinnacle’s response to our draft report is included as Appendix D. We excluded the attachments
to Pinnacle’s comments because they contained personally identifiable information.

OFFICE OF INSPECTOR GENERAL RESPONSE

In addition to its comments, Pinnacle provided additional documentation supporting a portion of
the unallowable costs and a portion of the potentially unallowable costs. We adjusted our draft
findings and recommendations based on the additional documentation.




                                               ii
                                                 TABLE OF CONTENTS 


                                                                                                                              Page

INTRODUCTION....................................................................................................................1


          BACKGROUND ...........................................................................................................1 


          OBJECTIVE, SCOPE, AND METHODOLOGY .........................................................1 

               Objective ............................................................................................................1        

               Scope..................................................................................................................1       

               Methodology ......................................................................................................2            


FINDINGS AND RECOMMENDATIONS ..........................................................................2 


          UNALLOWABLE COSTS ...........................................................................................3                  

              Subcontractor Costs ...........................................................................................3                

              Fiscal Year 2004 Costs ......................................................................................3 

              Fringe Benefit Costs ..........................................................................................3 

              Executive Compensation ...................................................................................4                     


          POTENTIALLY UNALLOWABLE COSTS ...............................................................4 

               Professional and Consulting Services................................................................4 

               Subcontractor Services.......................................................................................5                 


          RECOMMENDATIONS...............................................................................................5                 


          PINNACLE COMMENTS ............................................................................................5                 


          OFFICE OF INSPECTOR GENERAL RESPONSE ....................................................5 


APPENDIXES

          A – FINAL ADMINISTRATIVE COST PROPOSALS AND RECOMMENDED 

                 DISALLOWANCE, SET-ASIDE, AND ACCEPTANCE AMOUNTS FOR 

                 FISCAL YEARS 2005, 2006, and 2007 


          B – RECOMMENDED COST DISALLOWANCE AND SET-ASIDE AMOUNTS

          C – COMPARISON OF ADMINISTRATIVE COSTS CLAIMED TO BUDGET
                AUTHORIZATION

          D – PINNACLE COMMENTS




                                                                   iii
                                      INTRODUCTION


BACKGROUND 


Title XVIII of the Social Security Act established the Medicare Program, which provides for a
hospital insurance program (Part A) and a supplementary medical insurance program (Part B).
The Centers for Medicare & Medicaid Services (CMS) administers the Medicare program
through contractors, including Part B carriers that process and pay Medicare claims. Contracts
between CMS and the Medicare contractors define the functions to be performed and provide for
the reimbursement of allowable administrative costs incurred in the processing of Medicare
claims.

At the close of each fiscal year (FY), contractors submit to CMS a Final Administrative Cost
Proposal (cost proposal), which reports the costs incurred in performing Medicare functions
during the year. The cost proposal and supporting data provide the basis for an administrative
costs audit and final settlement of allowable costs.

For FYs 2005 through 2007, CMS contracted with Pinnacle Business Solutions, Inc. (Pinnacle),
to serve as the Medicare Part B contractor for Arkansas, Louisiana, Missouri, New Mexico,
Oklahoma, and Rhode Island. Pinnacle reported Medicare administrative costs totaling
$174,424,088 in its cost proposals for FYs 2005 through 2007.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the administrative costs Pinnacle reported in its cost
proposals were reasonable, allowable, and allocable in accordance with part 31 of the Federal
Acquisition Regulations (FAR) and the Medicare contract.

Scope

Our review covered the period October 1, 2004, through September 30, 2007 (FYs 2005 through
2007). For this period, Pinnacle reported Medicare administrative costs of $174,424,088.

We performed a limited review of the internal controls and procedures Pinnacle had in place to
allocate costs in accordance with the FAR and Medicare contract. We performed the review to
help us accomplish our objectives, not to provide assurance on the internal control structure.

We conducted fieldwork at the Pinnacle campus in North Little Rock, Arkansas, from November
2007 through May 2008.




                                                1

Methodology

To accomplish our objectives, we:

   •	 reviewed applicable Medicare laws, regulations, and guidelines;

   •	 reviewed the applicable sections of the FAR and the Pinnacle contract with CMS;

   •	 reviewed the independent auditor’s reports for FYs 2005 and 2006;

   •	 reviewed Pinnacle internal audit reports for FYs 2005 through 2007;

   •	 reconciled line-item expenses on cost proposals and cost classification reports to the
      contractor’s subsidiary record of expenses;

   •	 reviewed journal entries, invoices, expense reports, contracts and agreements, and 

      additional supporting documentation; 


   •	 interviewed Pinnacle officials regarding the cost accumulation processes for cost 

      proposals and cost allocation systems; 


   •	 reviewed payroll and personnel records; and

   •   tested costs for reasonableness, allowability, and allocability.

Regarding top Pinnacle executives who had salaries allocated to Medicare, we:

   •	 reviewed established personnel and accounting policies and procedures to determine
      Pinnacle’s practices for allocating compensation costs to Medicare,

   •	 compared a sample of executives’ compensation to benchmark compensation amounts
      published in the Federal Register, and

   •	 identified excessive executive compensation costs.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for out findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

Pinnacle reported expenditures in its cost proposals that substantially complied with FAR and
Medicare contract provisions. However, Pinnacle reported $247,040 in unallowable costs: (1)
$172,477 in overstated costs related to subcontracts ($149,089), fringe benefits ($21,324), and


                                                 2

executive compensation ($2,064), and (2) $74,563 in FY 2004 costs that it reported on the FY
2005 cost proposal. Pinnacle also reported $594,079 in professional and consulting services
costs and $223,193 in subcontractor services costs that may be unallowable. We are setting
aside the potentially unallowable costs for the CMS contracting officer to review for
allowability.

Pinnacle had no forward funding remaining for FYs 2005 through 2007; i.e., Pinnacle had
performed all of the services for which it had received funding.

UNALLOWABLE COSTS

Subcontractor Costs

The carrier contract, Appendix B, section IV, states: “All contractors must depreciate all items
of equipment having a useful life of more than 1 year. The cost of equipment may not be
charged off as an expense in the year of purchase.”

Pinnacle overstated subcontractor costs by $149,089 in its FY 2006 cost proposal. The
overstatement occurred because Pinnacle accounted for an equipment purchase as an expense
rather than an asset. As a result, the FY 2006 cost proposal contains unallowable costs of
$149,089.

Fiscal Year 2004 Costs

FAR 31.201-2(a)(3) states: “A cost is allowable when the cost complies with . . . generally
accepted accounting principles and practices appropriate to the circumstances.” Also, the
“Medicare Financial Management Manual,” chapter 2, section 130, states that the final
administrative cost proposals (FACP) “shall not include adjustments related to prior years’ costs
on the current FACP.”

Pinnacle incorrectly reported $74,563 in FY 2004 costs in its FY 2005 cost proposal because the
FY 2004 cost proposal was closed for adjustments. The costs included contract labor, tuition
reimbursement credits, subcontractor costs, and outside professional services

Fringe Benefit Costs

Pinnacle reported unallowable fringe benefit costs totaling $21,324 in its FY 2005 and FY 2006
cost proposals.

State Unemployment Tax Refund

FAR 31.201-5 states: “The applicable portion of any income, rebate, allowance, or other credit
relating to any allowable cost and received by or accruing to the contractor shall be credited to
the Government either as a cost reduction or by cash refund.”




                                                3

Pinnacle received a $15,559 State unemployment tax refund that was not included in the FY
2005 and FY 2006 cost proposals. Because the refund was not deducted from costs, the FY 2005
and FY 2006 cost proposals contain unallowable costs of $15,559.

Lobbying Costs

FAR 31.205-22(c) states: “When a contractor seeks reimbursement for indirect costs, total
lobbying costs shall be separately identified in the indirect cost rate proposal, and thereafter
treated as other unallowable activity costs.”

Pinnacle reported unallowable costs totaling $5,765 in its FY 2005 and FY 2006 cost proposals
for lobbying activities related to corporate membership in a trade organization.

Executive Compensation

FAR 31.205-6(p) states: “Costs incurred after January 1, 1998, for compensation of a senior
executive in excess of the benchmark compensation amount determined applicable for the
contractor fiscal year by the Administrator, Office of Federal Procurement Policy (OFPP), under
Section 39 of the OFPP Act (41 U.S.C. 435) are unallowable . . . .” Effective January 2, 1999,
senior executives are “. . . the five most highly compensated employees in management positions
at each home office and each segment of the contractor, whether or not the home office or
segment reports directly to the contractor’s headquarters.”

Pinnacle overstated executive compensation costs by $2,064 in its FY 2005 cost proposal.
Pinnacle made a calculation error that understated the adjustment made to eliminate excess
executive compensation in the cost proposal.

POTENTIALLY UNALLOWABLE COSTS

Professional and Consulting Services

The carrier contract, section II, part I, B, states: “The prior written approval of the
Contracting Officer shall be required: . . . (b) for the utilization of the services of any consultant
under this contract where such reimbursement exceeds or may exceed $400.00 per day or
$100,000 per year, exclusive of travel costs.” In addition, the carrier contract, section I, article
XVII, G, states: “If, with respect to any subcontract entered into under this Article requiring the
prior written approval of the Secretary, such required approval is not obtained, the United States
shall not be obligated to reimburse the Carrier for any costs incurred, relative to such
subcontract, prior to the date of the Secretary’s approval unless so stipulated.”

Pinnacle reported costs totaling $594,079 in its FY 2005 and FY 2006 cost proposals for
professional and consulting services for which it was unable to provide written approval.
Without prior written approval, CMS is not required to reimburse these costs.




                                                  4

Subcontractor Services

The carrier contract, section I, article XVII, A, states: “The Carrier shall not enter into any
subcontract with a third party to perform any of the functions set forth in this contract unless
such subcontract received the prior written approval of the Secretary.” In addition, the carrier
contract, section I, article XVII, G, states: “If, with respect to any subcontract entered into under
this Article requiring the prior written approval of the Secretary, such required approval is not
obtained, the United States shall not be obligated to reimburse the Carrier for any costs incurred,
relative to such subcontract, prior to the date of the Secretary’s approval unless so stipulated.”

Pinnacle reported costs totaling $223,193 in its FY 2005 and FY 2006 cost proposals for
subcontracting services for which it was unable to provide written approval. Without prior
written approval, CMS is not required to reimburse these costs.

RECOMMENDATIONS

We recommend that Pinnacle:

   •	 decrease its FY 2005 cost proposal by $94,079 and its FY 2006 cost proposal by 

      $152,961 to reflect the unallowable costs and 


   •	 work with the CMS contracting officer to determine the allowability of $817,272 in costs
      related to professional and consulting services and subcontractor services.

PINNACLE COMMENTS

In written comments on our draft report, Pinnacle agreed that it had reported unallowable costs.
Pinnacle said that it had made or would make adjustments or offsets to decrease its FY 2005 cost
proposal by $94,079 and its FY 2006 cost proposal by $152,961. Pinnacle said that it would
work with CMS to determine the allowability of costs relating to professional and consulting
services and subcontractor services.

Pinnacle’s response to our draft report is included as Appendix D. We excluded the attachments
to Pinnacle’s comments because they contained personally identifiable information.

OFFICE OF INSPECTOR GENERAL RESPONSE

In addition to its comments, Pinnacle provided additional documentation supporting a portion of
the unallowable costs and a portion of the potentially unallowable costs. We adjusted our draft
findings and recommendations based on the additional documentation.




                                                  5

APPENDIXES

                                                                       APPENDIX A



      FINAL ADMINISTRATIVE COST PROPOSALS AND RECOMMENDED
   DISALLOWANCE, SET-ASIDE, AND ACCEPTANCE AMOUNTS FOR FISCAL
                      YEARS 2005, 2006, and 2007

            Cost Category            FY 2005     FY 2006        FY 2007       Total
Salaries/wages                     $38,171,162 $37,126,933     $34,035,939 $109,334,034
Fringe benefits                     12,121,891   12,395,585     11,115,698   35,633,174
Facilities or occupancy              3,359,260    3,555,009      3,176,944   10,091,213
Data processing equipment            2,531,103    2,355,797      1,945,339    6,832,239
Subcontractors                       2,880,947    3,337,666      2,189,376    8,407,989
Outside professional services        1,353,005   (2,399,439)    (1,831,841)  (2,878,275)
Telephone and telegraph                798,573    1,023,912        791,191    2,613,676
Postage and express                  6,556,027    5,772,859      4,978,481   17,307,367
Furniture and equipment              4,298,047    4,436,600      2,592,614   11,327,261
Materials and supplies               1,383,307    1,018,576        976,946    3,378,829
Travel                                 620,134      456,066        376,423    1,452,623
Return on investment                   498,122      226,530              0      724,652
Miscellaneous                          778,621    3,986,744      3,410,158    8,175,523
Other                                        0       (2,751)             0       (2,751)
  Subtotal                          75,350,199   73,290,087     63,757,268  212,397,554
Other adjustments (credits)        (13,350,795) (12,981,129)   (11,641,542) (37,973,466)
  Total                            $61,999,404 $60,308,958     $52,115,726 $174,424,088
Forward funding                              0            0              0             0
  Total claimed on cost proposal   $61,999,404 $60,308,958     $52,115,726 $174,424,088
Recommended disallowance*              94,079       152,961             0        247,040
Recommended set-aside*                550,412       266,860             0        817,272

Recommended for acceptance         $61,354,913   $59,889,137   $52,115,726   $173,359,776

*See Appendix B
                                                                           APPENDIX B


       RECOMMENDED COST DISALLOWANCE AND SET-ASIDE AMOUNTS

                                       Fiscal Year 2005
Disallowance Category                           Disallowance   Set-Aside
State unemployment tax refund                     $14,620
Lobbying costs                                      2,832
Executive compensation                              2,064
Fiscal year 2004 costs                             74,563
Professional and consulting services                           $409,601
Subcontractor services                                          140,811
 Total                                            $94,079      $550,412



                                       Fiscal Year 2006
Disallowance Category                           Disallowance   Set-Aside
Subcontractor costs/services                     $149,089       $82,382

State unemployment tax refund                         939
Lobbying costs                                      2,933
Professional and consulting services                            184,478
 Total                                           $152,961      $266,860
                                                                                     APPENDIX C
                                                                                       Page 1 of 3


                    COMPARISON OF ADMINISTRATIVE COSTS CLAIMED
                            TO BUDGET AUTHORIZATION

                                              Fiscal Year 2005

                                                                                  Variance—
                                                  Budget           Administrative  Favorable
                  Operation                    Authorization       Costs Claimed (Unfavorable)
    Program Management (PM)
    Bills/claims payment                        $43,855,126         $43,260,395    $594,731
    Appeals/reviews                               6,730,518           6,710,373       20,145
    Beneficiary inquiries                         4,015,077           4,024,474       (9,397)
    PM provider communications                      109,182             109,174            8
    Participating physician                         290,128             290,502         (374)
    Productivity investment                         349,862             114,761     235,101
    Provider enrollment                           2,906,010           2,939,044      (33,034)
    Provider telephone inquiries                  4,368,466           4,335,220       33,246
    Credits                                     (13,213,142)        (13,127,766)     (85,376)
      Subtotal                                   49,411,227          48,656,177     755,050
    Medicare Integrity Program
    (MIP)
    Medical review                                4,566,919           4,620,076      (53,157)
    MSP1 prepayment                                 672,706             672,667           39
    Benefits integrity                              263,771             257,589        6,182
    Provider education and training               1,102,021           1,080,857       21,164
    Provider communications                       1,567,654           1,531,055       36,599
    MSP postpayment                               3,271,076           3,253,613       17,463
      Subtotal                                   11,444,147          11,415,857       28,290
    MMA2 fee-for-service                             69,000              68,632          368
    MMA regulatory reform                         1,871,487           1,858,738       12,749
       Total                                    $62,795,861         $61,999,404     $796,457

NOTE: All amounts taken from Final Administrative Cost Proposal (Supplement No. 7) and
Notice of Budget Approval (Supplement No. 13).




1
    MSP – Medicare secondary payer
2
    MMA – Medicare Prescription Drug, Improvement, and Modernization Act
                                                                           APPENDIX C
                                                                             Page 2 of 3


              COMPARISON OF ADMINISTRATIVE COSTS CLAIMED
                      TO BUDGET AUTHORIZATION 


                                    Fiscal Year 2006 


                                                                   Variance—
                                         Budget     Administrative  Favorable
              Operation               Authorization Costs Claimed (Unfavorable)
Program Management
Bills/claims payment                   $40,222,900       $39,756,328      $466,572
Appeals/reviews                          7,725,400         7,758,753       (33,353)
Beneficiary inquiries                    3,961,600         3,572,254       389,346
PM provider communications                 601,900           563,666        38,234
Participating physician                    317,600           361,164       (43,564)
Productivity investment                    158,000           103,838        54,162
Provider enrollment                      3,127,100         3,177,845       (50,745)
Provider telephone inquiries             6,406,000         6,265,116       140,884
Credits                                (13,316,100)      (12,801,433)     (514,667)
  Subtotal                              49,204,400        48,757,531       446,869
Medicare Integrity Program
Medical review                           4,692,000         4,404,624       287,376
MSP prepayment                             696,700           931,489      (234,789)
Benefits integrity                         326,000           353,805       (27,805)
Provider education and training          1,156,100         1,134,963        21,137
Provider communications                  1,288,200         1,249,288        38,912
MIP productivity investment                126,300           126,300             0
MSP postpayment                          3,063,300         3,006,783        56,517
  Subtotal                              11,348,600        11,207,252       141,348
Nonactivity Summary
Nonrenewal                                       0           344,175      (344,175)
   Total                               $60,553,000       $60,308,958      $244,042

NOTE: All amounts taken from Final Administrative Cost Proposal (Supplement No. 4) and
Notice of Budget Approval (Supplement No. 21).
                                                                           APPENDIX C
                                                                             Page 3 of 3
              COMPARISON OF ADMINISTRATIVE COSTS CLAIMED
                      TO BUDGET AUTHORIZATION

                                      Fiscal Year 2007
                                                                     Variance
                                          Budget     Administrative  Favorable
              Operation                Authorization Costs Claimed (Unfavorable)
Program Management
Bills/claims payment                    $38,528,600      $37,643,396      $885,204
Appeals/reviews                           4,712,000        4,726,146       (14,146)
Beneficiary inquiries                     1,091,000          837,994       253,006
Participating physician                      82,600           78,893         3,707
Productivity investment                      79,400                0        79,400
Provider enrollment                       5,160,600        4,862,835       297,765
Provider telephone inquiries              6,538,200        6,301,558       236,642
Provider outreach and education             150,400          147,525         2,875
Credits                                 (12,297,100)     (11,603,877)     (693,223)
  Subtotal                               44,045,700       42,994,470     1,051,230
Medicare Integrity Program
Medical review                            4,691,000        4,461,994       229,006
MSP prepayment                              867,400          488,041       379,359
Benefits integrity                          300,000          238,562        61,438
MSP postpayment                           2,159,000        2,091,851        67,149
MIP provider outreach and education       2,030,800        1,840,813       189,987
  Subtotal                               10,048,200        9,121,261       926,939

   Total                                $54,093,900      $52,115,731    $1,978,169

NOTE: All amounts taken from Final Administrative Cost Proposal (Supplement No. 00) and
Notice of Budget Approval (Supplement No. 11).
APPENDIX D
  Page 1 of 3 

APPENDIX D
  Page 2 of 3 

APPENDIX D
  Page 3 of 3 

